Supreme Court, U.S,
FILED

JUL 0 2 2020
OFFICE OF THE CLERK

No.

IN THE
■ -t

SUPREME COURT OF THE UNITED STATES
MATTHEW J. FRAWLEY— PETITIONER
VS.
VICTORIA L. FRAWLEY— RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI TO

Missouri Western District Court of Appeals, and
Missouri Supreme Court denial of Writ of Certiorari
PETITION FOR WRIT OF CERTIORARI

*

MATTHEW J. FRAWLEY
1441 BRITTANY CV,
ST. CHARLES, MO 63304
(816) 349-1705

JUL ~ 9 2020

QUESTIONS PRESENTED
I.

II

Whether the Missouri Western District Court
of Appeals committed err by not finding
Petitioner’s 14th Amendment due process rights
were violated by the trial court judge’s refusal
to recuse herself as required by Missouri
Supreme Court Rule 2-2.11 after Petitioner
moved to recuse the trial court judge and
stated facts that reasonably called the trial
court judge’s impartiality into question.
Whether the Missouri Western District Court
of Appeals committed err by not finding that,
as applied to Petitioner, sections 452.375.2 and
452.400.2 of the Revised Statutes of Missouri
violated Petitioner’s 14th Amendment rights by
granting the trial court broad discretion to
infringe upon Petitioner’s fundamental liberty
interest in raising his children and denying
Petitioner equal protection of the law on the
basis of Petitioner’s disability.

;,
V •

ALL PARTIES

All parties appear in the caption of the case on the
cover page.
■■<r

2

*

TABLE OF CONTENTS

OPINIONS BELOW.

5

JURISDICTION

5

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED............ ..................................................... . 6
STATEMENT OF THE CASE

6

ARGUMENT

16

CONCLUSION
INDEX TO APPENDICES

28

APPENDIX A Missouri Western District Court of Appeals
decided February 11, 2020
33

APPENDIX B State Trial Court Decision, decided
January 3,2020........................................................

80

APPENDIX C Missouri Supreme Court Denial of
Application to Transfer...... ....................................

151

3

4*

TABLE OF AUTHORITIES CITED

PAGE NUMBER
CASES
Berger v. United States, 255 U.S. 22, 41 S.Ct. 230, 65
L.Ed. 481
(1921)
18, 19

City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432,
446 105 S. Ct. 3249 (1985)
17, 23-24
Jetz Service Co., Inc. v. Chamberlain, 812 S.W.2d 946
(Mo. App. 1991)................................................................... 17

Lapee v. Snyder, 198 S.W.3d 172, 182 2006 Mo. App.
17, 19
LEXIS 1203
Tyler v. Mitchell, 853 S.W.2d 338, 341 (Mo. App.
1993

23

Troxel et vir. v Granville, 530 U.S. 57, 120 S.Ct. 2054, 147
L.Ed.2d 49 (2000)
25-27

STATUTES AND RULES:
U.S. Const., amend. XIV
452.375.2 of the Revised Statutes of Missouri
4

452.400.2 of the Revised Statutes of Missouri
2-2.11 Mo. Sup. Ct. Rule
IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue
to review the judgment below.

OPINIONS BELOW
[X] For cases from state courts:
The opinion of the highest state court to
review the merits appears at Appendix “A”
to the petition and is not reported.

JURISDICTION
[X] For cases from state courts:
The date on which the highest state court
decided my case was February 11, 2020. A copy
of that decision appears at Appendix A.
.

i

5

The date the lowest state court decided my case
was January 3, 2019. A copy of that decision
appears at Appendix B.
A timely petition for rehearing was thereafter
denied on the following date:
April 28, 2020, and a copy of the order
denying rehearing appears
at Appendix C.
The jurisdiction of this Court is invoked
under 28 U. S. C. § 1257(a).
CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
“No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the
United States! nor shall any State deprive any person of
life, liberty, or property, without due process of law! nor
deny to any person within its jurisdiction the equal
protection of the laws. U.S. Const, amend. XIV
452.375 RSMo
452.400 RSMo
Mo. Sup. Ct. Rule 2-2.11

6

STATEMENT OF THE CASE
On March 7, 2013, the trial court for the 6th Judicial
Circuit of the State of Missouri entered a Judgment of
Dissolution (here after “Judgment”), dissolving the
marriage of Petitioner and Respondent. The Judgment
was entered after trial in which Petitioner did not appear.
The Judgment granted Respondent sole legal and
physical custody of two minor children, CF and JF.
Petitioner was granted reasonable periods of visitation at
the discretion of Respondent.
On May 3, 3013, Petitioner was declared incapacitated
and disabled by the 6th Judicial Circuit of the State of
Missouri. Shortly after such declaration, Petitioner was
diagnosed with bipolar and ADHD. Once Petitioner
received treatment, his condition drastically improved.
On March 6, 2015, Petitioner was restored to capacity by
the 6th Judicial Circuit of the State of Missouri.
Petitioner was an active participant in CF and JF’s lives.
Beginning April of 2015, Respondent voluntarily
permitted overnight visitation with CF and JF three
nights per week.
On June 10, 2016, Petitioner filed a motion to modify the
Judgment based on Respondent’s liberal visitation and
the Judgement’s impermissible grant of unfettered
discretion to Respondent as to Petitioner’s custody time
with CF and JF. In response, Respondent filed a motion

7

for appointment of a guardian ad litem and a motion that
Petitioner undergo a psychological evaluation.
The trial court litigation spanned thirty months in total.
Actual trial did not commence until eighteen months after
the litigation first commenced. The trial itself spanned six
trial dates over a twelve-month period. Several trial dates
were scheduled, cancelled, and rescheduled at the request
of the guardian ad litem and trial court judge for
nonpayment of guardian ad litem fees, which is expressly
prohibited under 514.040.5 of the Revised Statutes of
Missouri.
Prior to trial, Respondents prelitigation strategies (e.g.
requesting the appointment of a guardian ad litem,
requesting Petitioner undergo a psychological evaluation,
extensive discovery and motions, threats to withhold
custody time, and refusal to try mediation) caused
Petitioner to incur $20,000.00 in legal fees prior to trial.
The trial court entered an order for psychological
evaluation on or about November 11, 2016. The appointed
psychologist cancelled several scheduled appointments
following her appointment. The evaluation was conducted
on or about February 11, 2017.
On April 14, 2017, Respondent unilaterally withheld all
custody time from Petitioner. Petitioner moved for
temporary custody. The trial court judge denied the
motion.

8

Prior to trial, Petitioner filed a motion requesting an
order granting Petitioner attorney fees because
Petitioner, who earned ,$16.00 per hour, could not proceed
with counsel absent such order (after incurring
$20,000.00 in legal fees due to Respondent’s pre-trial
litigation tactics). The trial court denied the motion and
permitted Petitioner’s attorney leave to withdraw.
Petitioner requested mediation. After Respondent
informed the trial court that mediation would be “an
exercise in futility” and the trial court judge warned
Petitioner that he may be ordered to pay for mediation,
Petitioner withdrew his request.
On or about July 21, 2017, after persistent requests by
Petitioner, the psychologist submitted an evaluation to
Respondent’s counsel and the guardian ad litem. On
August 16, 2017, the trial court judge refused Petitioner’s
request for a copy of the evaluation. The trial court judge
stated that the trial court judge could not give Petitioner
a copy of Petitioner’s evaluation because giving a copy of
the evaluation to Petitioner posed a risk of third-party
dissemination. At trial, the trial judge stated the reason
Petitioner could not have a copy of Petitioner’s evaluation
was to protect the psychologist. After hearing, the trial
court judge permitted Petitioner to view the evaluation at
the office of the guardian ad litem. However, the trial
Court judge held Petitioner could not take notes of the
evaluation verbatim.
On August 16, 2017, Petitioner applied to proceed without
costs because Petitioner had recently been relieved of his
9

position with the State of Missouri after Respondent’s
attorney contacted Petitioner’s employer to inquire into
the employer’s position regarding outside employment.
Respondent’s counsel contacted Petitioner’s employer
after Petitioner sought to disqualify Respondent’s counsel
as a necessary witness. The trial court judge denied
Petitioner’s application on the basis that Petitioner’s wife
could support Petitioner (without any evidence to support
such assertion).
On December 7, 2017, the trial court judge took up
Petitioner’s motion to exclude the admission of the before
mentioned as a business record. The trial court judge held
the evaluation admissible as a business record despite the
fact that such record does not qualify as a business record
under 490.690 and 490.692 of the revised statutes of
Missouri, contains hearsay within hearsay, and a copy of
the evaluation was not served upon Petitioner as required
by 490.690 and 490.692 of the revised statutes of
Missouri. The trial court judge refused to hear argument
as to why the evaluation did not satisfy the Frye test for
purposes of admissibility.
The evaluation was not reasonably relied on in the field of
psychology (i.e. the evaluation took five plus months to
complete). The evaluation is also not reasonably relied on
in the field of psychology because the methodology and
facts and data are not reasonably relied on in the field.
Petitioner answered a set of 15 questions (out of 567
questions) in the affirmative. Affirmative answers to that
15-question set may indicate a party answering the
10

questions is not giving an honest response. Based on the
Petitioner’s answers to the 15-question set, the
psychologist inferred Petitioner did not give honest
responses. Therefore, the psychologist nullified the test
results which otherwise reveal Petitioner presented with
no issues. As such, the psychologist concluded Petitioner
■w-a-s»a.dange-r«t-Q*&fea.nd«Jfebe6ansei£efi4iQner^»as,,flitrr i I
diagnosed bipolar.
At trial, the evaluation (and business record affidavit)
were admitted into evidence over Petitioner’s objection.
At trial, Petitioner offered the evaluation of his treating
psychiatrist with attached business record affidavit. The
guardian ad litem notably objected to the evaluation’s
admission. The trial court judge ruled Petitioner’s
evaluation inadmissible as a business record. The ruling
clearly contradicted to the trial court judge’s previous
rationale for admission of the evaluation prepared by the
psychologist. Notably, however, Petitioner evaluation
established the psychiatrist’s qualification and her
personal observations of Petitioner which Respondent’s
evaluation did not. Petitioner’s evaluation stated
Petitioner has excellent insight into his mental health
diagnosis, effectively monitors his symptoms, and is
compliant with her recommendations.
Prior to and during trial, the trial court judge threatened
to enter an order requiring Petitioner pay Respondent her
attorney fees for requesting the before mentioned motions
be heard. Petitioner filed such motions because he had
11

been denied the right to counsel, the right to contest
allegation made against him, and the right to a fair and
impartial trier of fact. Petitioner raised the issues of due
process violations and denial of equal protection during
the before mentioned motions and at trial. Trial
transcript pages 70, 86, 1,135, 1,510, 1,619.
At trial, Petitioner presented seven witnesses, including
himself. Larry Altman, an expert in Title IX
discrimination, testified to his observations of Petitioner.
In additional to the evaluation prepared by his
psychiatrist, Petitioner presented the business records of
a supervised visitation facility that personally observed
Petitioner with CF and JF. At trial, Respondent
presented no witness other than herself.
On the second day of trial, Petitioner offered an audio
recording of CF and JF at a baseball game in which
Petitioner attended and recorded. Such audio recording
directly contradicted statements made by Respondent to
the psychologist (who conducted the evaluation), the
statements of which were included in the evaluation and
presumably impacted the psychologist’s recommendation.
Petitioner testified to the audio recording’s chain of
custody, that the recording had not been edited, the
reliability of the recording device, and the reliability of
the recording process. The trial court judge denied
admission of the audio recording and failed to state the
specific reason for denial. Petitioner requested he be given
an opportunity to reopen evidence and offer the audio
recording at the beginning of the next court date.
12

At the beginning of the next court date, Petitioner sought
admission of the audio recording. The trial court hostilely
refused and denied an offer of proof. The guardian ad
litem subtlety objected to the offer of proof as well.
The audio recording was material to Respondent’s
credibility because Respondent made several statements
to the psychologist (which were included in the
evaluation) and the audio recording word for work
contradicted Respondent’s statements. Respondent’s
statements to the psychologist depicted Petitioner as
erratic and unstable. The audio recording was material to
whether Respondent lied and deceived the psychologist.
The audio recording was also material to the guardian ad
item’s credibility. At trial, the guardian ad litem deceived
the trial court by denying there were issues that call the
evaluation’s reliability into question. The audio recording
clearly called the evaluation’s reliability into question.
The audio recording also revealed that CF and JF were
emotionally upset after Respondent withheld visitation,
Respondent demeaned Petitioner in the presence of the
children (by indicating Petitioner was not mentally well),
and CF and JF expressed their wishes to,spend time with
Petitioner.
At trial, the trial court judge impermissibly allowed the
guardian ad litem to cause Petitioner unfair surprise by
asking questions regarding Petitioner’s mental health
records that predate the Judgment and without
13

previously providing Petitioner with a copy of said
medical records as required by 490.692 of the revised
statutes of Missouri. The guardian ad litem also
misc'haracterized those same records and falsely claimed
that two of Petitioner’s previous medical professional
stated that the medication prescribed by Petitioner’s
current psychiatrist, Adderall (to treat his diagnosis of
ADHD), should not be prescribed.
Its noticeable that once the reliability of the evaluation
was legitimately called into question, Respondent and the
guardian ad litem falsely claimed Petitioner was taking a
medication he should not be taking as a basis for why
Petitioner is a danger to CF and JF (with no expert
opinion to support such assertion). Notably, the guardian
ad litem could not answer why Petitioner is a danger to
CF and JF but not AF (Petitioner’s daughter who is in
Petitioner’s custody full time).
On the second day of trial, the trial court judge stated
that the third day of trial would be the final day of trial.
At the conclusion of the third day of trial, the trial court
judge scheduled three additional consecutive trial dates in
August of 2019 (five months after the third day of trial).
Notably, the first date of trial was December 11, 2017, the
second date of trial was February 15, 2018 (two months
later), and the third date of trial was March 7, 2019
(approximately a month after the second date of trial).
On the fourth day of trial, Petitioner sought to remove the
guardian ad litem for failure to faithfully execute her
14

duties (as required by Missouri statute) after the
guardian ad litem sought to postpose trial unless the
guardian ad litem was paid additional fees (which is
prohibited by Missouri Supreme Court rule regarding
guardian ad litem duties). The trial court judge responded
hostilely to Petitioner’s motion, stating she (the trial court
judge) makes sure her guardian ad litems get paid, and
warned Petitioner to tread lightly. The trial court judge
refused to remove the guardian ad litem despite clear
deficiencies and failure to execute Missouri Supreme
Court mandated duties.
Petitioner sought to disqualify the trial court judge on the
fourth day of trial because the trial court judge had
objectively demonstrated bias against Petitioner and
deprived Petitioner due process rights. Petitioner
highlighted the disparity in treatment between Petitioner
and Respondent by the trial court judge.
The trial court judge refused to recuse herself on the basis
she did not believe she was bias against Petitioner and
her recusal was not in Petitioner’s best interest. Such
rationale is not the standard for recusal under Missouri
Supreme Court Rule 2-2.11. After the fourth day of trial,
the trial court judge cancelled the next two court dates
causing a two months gap between the fourth and fifth
trial dates.
The Modification Judgment entered on January 3, 2019,
granted Respondent sole legal and sole physical custody of
CF and JF, restricted Petitioner visitation with CF and
15

JF to six hours of supervised visitation, and ordered
Petitioner to pay Respondent’s attorney fees and 2/3rds of
the guardian ad litem fee (despite the fact that
Respondent earns two to three times what Petitioner
earns per annum).
Petitioner timely appealed to the Western District Court
of Appeals. On June 20, 2019, Petitioner petitioned the
appellate court to file a brief in excess of Local Court rule
word count limit (15,500), but remain within the Missouri
Supreme Court Rule word count limit (27,900) since the
litigation spanned thirty months, consisted of six trial
dates, the transcript contained 1,646 pages, and
Petitioner alleged that the trial court judge committed
fourteen points of error. Petitioner’s last point focused on
the due process violations and equal protection issues.
Petitioner attached his proposed brief to the motion to file
brief in excess of Local Court rule word count limit. Such
motions are routinely granted by Missouri appellate
courts. On June 25, 2019, the Western District Court of
Appeals denied Petitioner’s motion without stating a
basis for such denial. Such denial limited Petitioner’s
ability to fully develop his point of error on the due
process and equal protection violations.
On June 27, 2019, Petitioner was forced to file an
abbreviated version of his Appellant brief. Respondent
was required to file her Reply brief within 30 days
because Local Court rule expedites appeals addressing
issues of child custody. Respondent filed her Reply brief
16

on September 24, 2019, approximately 60 days after her
Reply brief was due. The Wester District Court of Appeals
scheduled oral argument 60 days after Respondent filed
her Reply brief. On February 11, 2020, the Western
District Court of Appeals issued a signed majority
opinion approximately 60 days after oral argument (13
months after the Modification Judgment was entered).
On February 12, 2020, Petitioner filed a motion for
rehearing and application for transfer to the Missouri
Supreme Court. On March 3, 2020, both motions were
denied. On March 5, 2020, Petitioner filed his Application
for Certiorari to the Missouri Supreme Court. On April
29, 2020, the Missouri Supreme Court denied Certiorari.
The Western District Court of Appeals held that there
was substantial evidence to support the trial court’s
finding that unsupervised visitation with Petitioner
would endanger the children’s physical health or impair
their emotion development. The court cited to the trial
court’s findings that the trial court observed Petitioner’s
erratic filing of motions, Petitioner’s direct and indirect
threats against the court and opposing counsel, and
Petitioner’s hostile and disagreeable attitude, all
indicating a lack of stability.
The Western District Court of Appeals cited to
Respondent’s testimony but failed to find the trial court
judge committed prejudicial error in refusing to admit the
audio recording when the audio recording materially

17

contradicts Respondent’s statements and raises a
substantial question as to Respondent’s credibility.
The Western District Court of Appeals cited to the
statement made by the guardian ad litem which
mischaracterized Petitioner’s medical records predating
the Judgement that falsely claimed Petitioner is a danger
to CF and JF for taking Adderall, which Petitioner is
prescribed by Petitioner’s current psychiatrist to treat
ADHD.
The Western District Court of Appeals also upheld the
trial court judge’s refusal to recuse herself which conflicts
with United States Supreme Court precedent, the plain
and ordinary meaning of Missouri Supreme Court rule 22.11, and Missouri case law.
Lastly, the Western District Court of Appeals upheld the
trial court judge’s use of sections 452.375 and 452.400 of
the revised statutes of Missouri to infringe upon
Petitioner’s fundamental right to raise CF and JF, and
declined to take up the issue of the trial court judge’s
mischaracterization of the record, denial of due process,
and discrimination against Petitioner on the basis of his
disability.
ARGUMENT SUPPORTING ALLOWANCE OF WRIT

I.

Whether the Missouri Western District Court
of Appeals committed err by not finding
18

Petitioner’s 14th Amendment due process rights
were violated by the trial court judge’s refusal
to recuse herself as required by Missouri
Supreme Court Rule 2-2.11 after Petitioner
moved to recuse the trial court judge and
stated facts that reasonably called the trial
court judge’s impartiality into question. .
Petitioner requests Writ be issued to address the
important issue as to whether a trial court judge violates
a party’s 14th Amendment due process rights by denying a
party a fair and impartial trier of fact when a trial court
judge refuses to recuse him or herself after a party has
stated facts showing there is a reasonable question as to
trial court judge’s impartiality.
The Western District Court of appeals erred in finding
Petitioner was not denied due process under the 14th
Amendment when the trial court judge refused to recuse
herself after Petitioner pleaded and orally argued
objective facts that reasonably called the trial court judge
impartiality into question.
Missouri Supreme Court Rule 2-2.11 states, “A judge
shall recuse himself or herself in any proceeding in which
the judge’s impartiality might reasonably be questioned,
including but not limited to the following circumstances
(l) The judge has a personal bias or prejudice concerning
a party or a party’s lawyer. Mo. Sup. Ct. Rule 2-2.11. The
plain and ordinary meaning of the statute mandates that
once a trial court judge’s impartiality “might be
19

reasonably questioned”, the trial court judge is required
to recuse herself.
Missouri courts hold that the test for recusal is "whether
a reasonable person would have a factual basis to find an
appearance of impropriety and thereby doubt the
impartiality of the court." Lapee v. Snyder, 198 S.W.3d
172, 176 (Mo. App. 2006). Missouri courts also hold that
mandatory recusal is concerned, “not only with the judge's
actual impartiality but also the public's perception of the
judge's impartiality.” Jetz Service Co., Inc. v.
Chamberlain, 812 S.W.2d 946, 948 (Mo. App. 1991).
This Court, interpreting a similar federal statute, held
that, “the tribunals of the country shall not only be
impartial in the controversies submitted to them but shall
give assurance that they are impartial, free, to use the
words of the section, from any 'bias or prejudice' that
might disturb the normal course of impartial judgment.”
Berger v. United States, 255 U.S. 22, 36, 41 S.Ct. 230, 65
L.Ed. 481 (1921)
This Court specifically held (under a similar federal
statute) that once a party has stated facts that allege bias
or prejudice, a trial court judge must disqualify
themselves. Id. The rationale for immediate
disqualification of a trial court judge rather than leaving
disqualification up to the discretion of the trial court
judge (and/or the appellate court) was aptly stated by this
Court as follows:

20

“To commit to the judge a decision upon the truth
of the facts gives chance for the evil against which
the section is directed. The remedy by appeal is
inadequate. It comes after the trial and if prejudice
exist it has worked its evil and a judgment of it in
a reviewing tribunal is precarious. It goes there
fortified by presumptions, and nothing can be more
elusive of estimate or decision than a disposition of
a mind in which there is a personal ingredient.” Id.
The Western District Court of appeals erred in finding
that the trial court judge did not violate Petitioner’s due
process rights by refusing to recuse herself. The record is
replete with examples in which the trial court judge
demonstrated bias against Petitioner. Petitioner, as a pro
se, attorney, filed a motion and made oral argument that
objectively demonstrated the trial court judge was biased
against Petitioner and acted in a manner inconsistent
with due process.
The trial court judge refused Petitioner’s motion to
proceed informa pauperis after permitting Petitioner’s
attorney to withdraw. At the same time, the trial court
judge refused to provide Petitioner with a copy of the
evaluation that was being used against him, permitted
the evaluation to be admitted as a business record, and
denied Petitioner with the ability to contest the
unreliability of the evaluation itself. The trial court judge
manipulated the record to exclude material evidence
stating a basis for such exclusion that defied logic and
contradicted her previous rulings. Lastly, the trial court
21

judge threatened Petitioner with being ordered to pay
Respondent’s attorney fees and expressed her hostility
each time Petitioner sought to secure his rights, fight the
denial of his due process, and expose unethical behavior
by Respondent’s attorney and the guardian ad litem.
As such, under the plain and ordinary meaning of
Missouri Supreme Court Rule 2-2.11 and Missouri case
law, the Western District Court of Appeals erred in
finding that the trial court judge was not required to
recuse herself because Petitioner stated objective facts
that show the trial court judge’s impartiality was
reasonably called into question. Mo. Sup. Ct. Rule 2-2.11,
Lapee at 176, Chamberlain at 948.
Additionally, as this Court held regarding a similar
federal statute, it is err to commit to the trial court judge,
or appellate court, the decision as to whether a trial court
judge is required to disqualify themselves because the evil
against Petitioner has been accomplished as is evident in
the trial court judge’s retaliatory Modification Judgement
and the Western District Court of Appeals unwillingness
to commit the trial court judge to err. Berger at 36.
Therefore, Petitioner requests Writ be issued to address
the important issue as to whether a trial court judge
violates a party’s 14th Amendment due process rights by
denying a party a fair and impartial trier of fact when the
trial court judge refuses to recuse him or herself after a
party has stated facts showing there is a reasonable
question as to trial court judge’s impartiality.

22

II.

Whether the Missouri Western District Court
of Appeals committed err by not finding that,
as applied to Petitioner, sections 452.375.2 and
452.400.2 of the Revised Statutes of Missouri
violated Petitioner’s 14th Amendment rights by
granting the trial court broad discretion to
infringe upon Petitioner’s fundamental liberty
interest in raising his children and denying
Petitioner equal protection of the law on the
basis of Petitioner’s disability.

Petitioner requests Writ be issued to address the
important issue as to whether sections 452.375.2 and
452.400.2 were unconstitutionally applied to Petitioner to
deprive Petitioner of his fundamental right to raise CF
and JF and deny Petitioner equal protection of laws, both
of which are guaranteed under the 14 Amendment to the
United States Constitution.
Section 452.375.2 of the Revised Statutes of Missouri
states^
“The court shall determine custody in accordance
with the best interests of the child. When the
parties have not reached an agreement on all
issues related to custody, the court shall consider
all relevant factors and enter written findings of
fact and conclusions of law, including, but not
limited to, the following:

23

(l) The wishes of the child's parents as to custody
and the proposed parenting plan submitted by
both parties;
(2) The needs of the child for a frequent,
continuing and meaningful relationship with both
parents and the ability and willingness of parents
to actively perform their functions as mother and
father for the needs of the child;
(3) The interaction and interrelationship of the
child with parents, siblings, and any other person
who may significantly affect the child's best
interests;
(4) Which parent is more likely to allow the child
frequent, continuing and meaningful contact with
the other parent;
(5) The child's adjustment to the child's home,
school, and community!
(6) The mental and physical health of all
individuals involved, including any history of
abuse of any individuals involved. If the court
finds that a pattern of domestic violence as defined
in section 455.010 has occurred, and, if the court
also finds that awarding custody to the abusive
parent is in the best interest of the child, then the
court shall enter written findings of fact and
conclusions of law. Custody and visitation rights
24

shall be ordered in a manner that best protects the
child and any other child or children for whom the
parent has custodial or visitation rights, and the
parent or other family or household member who is
the victim of domestic violence from any further
harm;
(7) The intention of either parent to relocate the
principal residence of the child; and
(8) The Wishes of a child as to the child's
custodian. The fact that a parent sends his or her
child or children to a home school, as defined in
section 167.031, shall not be the sole factor that a
court considers in determining custody of such
child or children.”
452.375.2 RSMo.
Section 452.400.2 of the Revised Statutes of Missouri
states1
“2. (l) The court may modify an order granting or
denying visitation rights whenever modification
would serve the best interests of the child, but the
court shall not restrict a parent's visitation rights
unless it finds that the visitation would endanger
the child's physical health or impair his or her
emotional development.”
452.400.2 RSMo.

25

The Western District Court of Appeals held that there
was substantial evidence to support the trial court’s
finding that unsupervised visitation with Petitioner
would endanger the children’s physical health or impair
their emotion development (under 452.400.2 RSMo). The
court cited to the trial court’s findings that the trial court
observed Petitioner’s erratic filing of motions, Petitioner’s
direct and indirect threats against the court and opposing
counsel, and Petitioner’s hostile and disagreeable
attitude, all indicating a lack of stability.
The Western District Court of Appeals also cited to the
false statement made by the guardian ad htem which
mischaracterized Petitioner’s medical records predating
the Judgement to falsely claim Petitioner a danger to CF
and JF (under 452.400.2 RSMo) for taking Adderall,
which Petitioner is currently prescribed by Petitioner’s
treating psychiatrist to treat ADHD.
In sumary, the substantial evidence the Western District
Court of Appeals cited to uphold restricting Petitioner’s
custody with CF and JF (and denying Petitioner the
ability to share in how CF and JF are raised), is based on
the fact that Petitioner has a diagnosis of bipolar and
ADHD. As applied to Petitioner, 452.375.2(6) permitted
the trial court to deprive Petitioner of his fundamental
right to raise his children by granting the trial court judge
authority to decide custody on the basis of, “The mental
and physical health of all individuals involved, including
any history of abuse of any individuals involved”.
452.375.2(6).

26

“The equal protection clause guarantees that similar
individuals will be dealt with in a similar manner by the
government. It does not reject the government's ability to
classify persons or ‘draw lines’ in the creation and
application of laws, but it does guarantee that those
classifications will not be based upon impermissible
criteria or arbitrarily used to burden a group of
individuals”. Tyler v. Mitchell, 853 S.W.2d 338, 341 (Mo.
App. 1993 “The State may not rely on a classification
whose relationship to an asserted goal is so attenuated as
to render the distinction arbitrary or irrational”. City of
Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 446 105
S. Ct. 3249 (1985)
The trial court synonymously used, “direct and indirect
threats against the court and opposing counsel, and
Petitioner’s hostile and disagreeable attitude, all
indicating a lack of stability” as a subtle but inartful way
of stating Petitioner is a danger to CF and JF because
Petitioner has a diagnosis of bipolar and ADHD. Aside
from the fact that such “threats” and “disagreeable
attitude” were a justified response to the trial court
judge’s discrimination and denial of Petitioner’s due
process, the guardian ad litem’s failure to execute her
Supreme Court mandated duties, and Respondent’s
counsel’s unethical behavior, section 452.375.2(6) of the
revised statutes of Missouri, as applied to Petitioner,
permitted the trial court to deny Petitioner equal
protection of laws by arbitrarily discriminating against
Petitioner on the basis of a mental health diagnosis that
is not substantially and/or rationally related or necessary

27

to the State’s legitimate interest in protecting minor
children. Mitchell at 341, City of Cleburrne at 446.
Put another way, the trial court judge failed to state how
Petitioner’s alleged actions make supervised visitation
and/or a denial of his parental rights necessary to protect
CF and JF under sections 452.375.2 and 452.400.2 of the
revised statutes of Missouri.
The trial court judge synonymously used the guardian ad
litem’s mischaracterization of medical records predating
the Judgment as a subtle and inartful way of stating
Petitioner is a danger to CF and JF because Petitioner
has a diagnosis of bipolar and ADHD. Aside from the fact
that Adderall is prescribed by Petitioner’s treating
psychiatrist and there was no expert testimony
establishing Petitioner taking Adderall poses a danger to
CF and JF, sections 452.375.2(6) and 452.400.2 of the
revised statutes of Missouri, as applied to Petitioner,
permitted the trial court to deny Petitioner equal
protection of laws by arbitrarily discriminating against
Petitioner on the basis of his mental health diagnosis
when such mental health diagnosis is not substantially
and/or rationally related to the State’s legitimate interest
in protecting minor children, but rather. Mitchell at 341,
City of Cleburrne at 446.
Put another way, the trial court judge had broad
unchecked authority to require supervised visitation
and/or a deny Petitioner of his parental rights when the
evidence to support such finding (i.e. Petitioner is a
28

danger to CF and JF because he is prescribed Adderall) is
based on Petitioner’s mental health diagnosis and is not
supported by expert testimony under sections 452.375.-2
and 452.400.2 of the revised statutes of Missouri.
The 14th Amendment "provides heightened protection
against government interference with certain
fundamental rights and liberty interests" Troxel et vir. v
Granville, 530 U.S. 57, 120 S.Ct. 2054, 147 L.Ed.2d 49
(2000). The Court should apply, “strict scrutiny is the
appropriate standard of review to apply to infringements
of fundamental rights.” Id. This Court held that, “the
interest of parents in the care, custody, and control of
their children -- is perhaps the oldest of the fundamental
liberty interests recognized by this Court.” Id.
This Court has stated:
“The Due Process Clause does not permit a State
to infringe on the fundamental right of parents to
make childrearing decisions simply because a state
judge believes a ‘better’ decision could be
made...The child is not the mere creature of the
State; those who nurture him and direct his
destiny have the right, coupled with the high duty,
to recognize and prepare him for additional
obligations...It would be anomalous, then, to
subject a parent to any individual judge's choice of
a child's,associates from out of the general
population merely because the judge might think
himself more enlightened than the child's parent.
To say the least...parental choice in such matters
29

is not merely a default rule in the absence of either
governmental choice or the government's
designation of an official with the power to choose
for whatever reason and in whatever
circumstances.”
Id. at 79.
Petitioner has a fundamental interest in raising CF and
JF. Id. The 14th Amendment guarantees that Petitioner’s
fundamental interest in raising CF and JF cannot be
infringed absent a showing that such infringement is
necessary to a compelling state interest. Id. at 80.
As previously mentioned, the trial court judge
unconstitutionally applied Sections 452.375.2 and
452.400.2 of the revised statutes of Missouri arbitrarily to
Petitioner on the basis of Petitioner’s mental health
diagnosis. In substance, the trial court judge’s
infringement of Petitioner’s fundamental interest in
raising CF and JF consisted of a mere disagreement with
the trial court judge as to who should have custody of CF
and JF.
In the Troxel case, this Court held that-Washington’s
grandparent visitation statute was unconstitutionally
applied because the trial court decision represented a
mere disagreement between who the trial court judge
thought should have custody or visitation of,the minor
children. Id. Specifically, this Court in Trowel cited to
Chicago v. Morales for the prdposition that every
application of a statute that represents an exercise of

30

unlimited discretion is an invalid application of the
statute. Id. at FN 3.
Sections 452.375.2 and 452.400.2 of the revised statutes of
Missouri grants a trial court judge broad discretion to
decide custody based on the best interests of a child
and/or when to restrict a parent’s custody because the
trial court judge has unfettered discretion to restrict a
parent’s fundamental liberty interest with little
parameters or restrains imposed by Sections 452.375.2
and 452.400.2 of the revised statutes of Missouri or the
appellate courts. Id. At 72.
Sections 452.375.2 and 452.400.2 of the revised statutes of
Missouri are unconstitutionally overbroad and
unconstitutional in their application to Petitioner because
the record reflects that the “substantial evidence” cited by
the Western District Court of Appeals to support
restricting Petitioner’s visitation of CF and JF is based on
an arbitrary classification regarding Petitioner’s mental
health diagnosis. Id. The trial court judge did not provide
a substantial reason why the cited facts show it is not in
the best interest of CF and JF and/or a danger to CF and
JF for Petitioner .to?share in the care, custody, and control
of CF and JF, and/or why supervised visitation is
necessary to protect CF -and JF from risk of harm. Id.
As such, the tri&l court judge’s determination represents
an overbroad and unconstitutional grant of discretion
under 452.375.2 and 452.400.2. of the revised statutes of
Missouri as applied to Petitioner, and represents the trial
31

court judge’s mere substitution of who she feels is a better
parent to that of Petitioner. Id. at 72.
Therefore, Petitioner requests Writ be issued to address
the important issue as to whether sections 452.375.2 and
452.400.2 of the revised statues of Missouri were
unconstitutionally applied to Petitioner to deprive
Petitioner of his fundamental right to raise CF and JF
and deny Petitioner equal protection of laws, both of
which are guaranteed under the 14 Amendment to the
United States Constitution.

CONCLUSION
Petitioner respectfully submits the Petition for Writ
of Certiorari be granted. The Court may wish to consider
summary reversal of the decision of the Western District
Court of Appeals.
Respectfully submitted,

/s/ Matthew J/Frawle

U

Date: 4* 0f July, 2021

32

